Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   THE   RYAN WHITE    CARE ACT:

     LOCAL IMPLEMENTATION   ISSUES
                      OFFICE OF INSPE(XOR GENERAL

The missionof the Office of Inspector General (OIG), as mandatedby Public Law 95-452, as
amended, is to protect the integrityof the Department of Health and Human Services’ (HHS)
programsas well as the health and welfare of beneficiariesserved by those programs. This
statutorymissionis carried out through a nationwidenetwork of audits,investigations,and
inspections conducted by three OIG operating components: the Office of Audit Services,the
Office of Investigations,and the Office of Evaluationand Inspections. The OIG also informs
the Secretaryof HHS of program and managementproblems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditingservicesfor HHS, either by
conducting auditswith its own audit resources or by overseeing auditwork done by others.
Audits examine the performance of HHS programsand/or its grantees and contractors in
carryingout their respective responsibilitiesand are intended to provide independent
assessmentsof HHS programsand operations in order to reduce waste, abuse, and
mismanagementand to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGA~ONS

The OIGS Office of Investigations(01) conducts criminal,civil, and administrative
investigationsof allegationsof wrongdoing in HHS programsor to HHS beneficiaries and of
unjustenrichmentby providers. The investigativeefforts of 01 lead to criminalconvictions,
administrativesanctions,or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigateand prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluationand Inspections (OEI) conducts short-termmanagementand
program evaluations(called inspections) that focus on issuesof concern to the Department,
the Congress, and the public. The findingsand recommendationscontained in these inspection
reports generate rapid, accurate,and up-to-date informationon the efficiency, vulnerability,
and effectiveness of departmentalprograms.

This report was prepared under the direction of William C. Moran, Regional Inspector
General, and Natalie Coen, Deputy Regional Inspector General, Office of Evaluation and
Inspections, Region V. Participatingin this project were:


REGION V
                                                                       REGION II
Joseph L. Penkrot (Project Leader)
                                             Lucille Cop
Ellen R. Meara

BarbaraButz
                                                            HEADQUARTERS
William Moran
                                                             Alan S. Levine

For a copy of this report, please call (312) 353-4124.

Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





   THE   RYAN WHITE                    CARE ACT:


     LOCAL IMPLEMENTATION                      ISSUES




               p,+ia
                 SERVICE$

           @            ~*q
          +
         ~’                   JUNE  GIBBS BROWN
         z                    Inspector General
         2
         % $
          %+--                         JUNE1995
            ‘%d~~
             3                       0EI-05-93-O0336
              EXECUTIVE                          SUMMARY


PURPOSE

To describe local implementation issues facing Ryan White grantees.

Reauthcnization
              Studies

The Ryan White Comprehensive AIDS Resources Emergency Act of 1990 (the Act)
expires in 1995 and its first reauthorization is pending before Congress. We have
previously examined the Act’s funding formulas, reviewed data on expenditures, and
analyzed consortia activities and special projects of national significance. In addition,
we studied current Centers for Disease Control and Prevention statistics and other
reports describing the spread of the disease,

In this current report, we utilize data both from our previous reports and from more
current field work in developing our findings and recommendations. The more recent
field work occurred in seven major cities that comprise 43 percent of the 1994 Title I
Ryan White funding. As a part of our visits to those cities, we reviewed funding and
service plans along with progress reports; listened to issues discussed and
deliberations held at planning council and committee meetings; visited and observed
on-going operations at a wide variety of local providers who receive funding from a
variety of sources including Ryan White; examined minutes of meetings and other
material collected on site; and held discussions with a range of respondents including
public health officials, grantee administrators, local providers, and persons with
HIV/AIDS.


BACKGROUND

The Act was created as a comprehensive response to the HIV epidemic and its impact
on individuals, families, communities, cities, and States. The Act was designed to
provide health care to those who would otherwise not have access to health care. It
was also meant to provide emergency relief funding to communities with the highest
number of reported AIDS cases.

The Health Resources and Services Administration (HRSA) within the Public Health
Service administers the Act. In fiscal year 1994, grantees received $579.4 million in
Ryan White funds from the funded provisions of the Act.




                                             i
FINDINGS

ErnagingHWL41DS populationspresentservicedeliveqproblem for Ryan U%ite
grantetn

HIV/AIDS is increasing among minorities, women, immigrants, young people, and
those who do not speak English. In all likelihood, the number of those infected in the
emerging HIV/AIDS populations is greatly underestimated. In minority, immigrant,
and non-English speaking communities, cultural mores often discourage those who
might be infected with HIV/AIDS from being tested or seeking treatment. The
emerging populations affected by HIV/AIDS are difficult to serve because of their
many needs and often their overwhelming poverty further complicates their treatment.
In addition to living with HIV/AIDS, they may also suffer from substance abuse or
addiction, hopelessness, mental illness, or other conditions requiring considerable care.

In spite of Mom by grantees,many respondentsbelievethatRyan Whiteprogramsdo not
serve minoritiesand otheremeq$ngpopulationsas wellas theyshould

In each city visited, respondents spoke of the gaps in services or lack of facilities for
these populations. Many also pointed to the lack of cultural, language, or gender
appropriate programs. In some cities, services for emerging populations exist, but
geography and/or lack of transportation make them difficult to access.

Littleprogramoutcome evaluationhas been undertakenat the nutionalor local levelk

While individual success stories in problem areas can be identified in each community
we visited, little program outcome evaluation has been undertaken that measures
whether the Act is accomplishing its overall goals. Client satisfaction surveys are
relatively widespread among providers at the local level, but these surveys are limited
to an assessment of an individual provider’s services rather than a comprehensive
evaluation of the Ryan White program in their communities.


RECOMMENDATIONS

llaeHW      shouldworkwithRyan Whitegranteesto identifiand disseminateways to
serve the emergingpopulationsaffectedby HW/!S

The l%blic Health Serviceshoulddeveihppracticalwaysto determinewhetherRyan
Whiteprogramgoak are beingaccomplkhedoveralland by individualgrantees




                                             ii
AGENCY    COMMENTS

We received comments from the Assistant Secretary for Planning and Evaluation, and
the Assistant Secretary for Health. Both support the recommendations and suggested
pertinent clarifications. Their comments are included in Appendices A and B
respectively. We made appropriate revisions to the report based on their comments.




                                        ...
                                        111
                       TABLE                     OF CONTENTS


                                                                                                                     PAGE


EXECUTIVE         SUMMARY


INTRODUCITON              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1


FINDINGS.       .......... ... ...               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 .Facing   servked elivery         problems         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5



 .Difficulties servingnewHIv/~Ds                     populations        . . . . . . . . . . . . . . . . . . . . . . . . . . 7



 �Evaluating     the Ryan       White     program       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   ..,8


RECOMMENDATIONS                     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


AGENCY         COMMENTS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...12


APPENDIX        A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..      A-l


APPENDIX        B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..       B-l

                                      INTRODUCTION


PURPOSE

To describe local implementation issues facing Ryan White grantees.

Reauthokation Stu&s

The Ryan White Comprehensive AIDS Resources Emergency Act of 1990 (the Act)
expires in 1995 and its first reauthorization is pending before Congress. We have
previously examined the Act’s funding formulas, reviewed data on expenditures, and
analyzed consortia activities and special projects of national significance. In addition,
we studied current Centers for Disease Control and Prevention statistics and other
reports describing the spread of the disease.

In this current report, we supplement previously acquired data with observations and
discussions at the local level. These included our attending planning council and
committee meetings; visiting local project sites and providers; holding discussions with
grantee administrators, project staff, providers, and persons with HIV/AIDSl; and
reviewing funding and service plans, and progress reports.

This study is complemented by another report, Eramplesof Local Coordination (OEI-
05-93-00335) that describes experiences of Ryan White grantees. The previous Ryan
White CARE Act reports are: Funding Fomwlas (OEI-05-93-00330);            FY 1992 ~“tle I
and Title 11 Expendinues (OEI-05-93-00331);     Consom”a Activities (OEI-05-93-O0333);
FY 1992 Special Projects of National Significance - Expenditures by Service (OEI-05-93-
00332); and, Technical Repoti of 1992 Expenditures (OEI-05-93-O0334).      The General
Accounting Office (GAO) recently released a report describing the extent to which
Ryan White services are provided to minorities, women, and substance abusers. While
GAO did not examine the barriers to providing Ryan White semices to these emerging
HIV/AIDS populations, their findings dovetail with this report regarding grantees’
limitations in treating these populations.


BACKGROUND

In response to over 128,000 cases of AIDS reported to the Centers for Disease
Contr~l and Prevention (CDC), the 78,000 AI’DS deaths, and the nearly one million
infected with HIV, Congress passed The Ryan White Comprehensive AIDS Resources
Emergency Act of 1990. The Act was created as a comprehensive response to the



     1      Since the l@an White Act enables grantees to deliver a wide range of services to people alagnosed with either HIV or AIDS,
thi.$report uses the term “HIV/AIDY to refer to either or both groups of @an White clienti.



                                                                   1
HIV epidemic and its impact on individuals, families, communities, cities, and States.
The Act was designed to provide health care to persons with HIV/AIDS who would
otherwise not have access to health care. It was also meant to provide emergency
relief funding to communities with the highest number of reported AIDS cases.

Congress attempted to meet a number of needs with the Act. They attempted to
address the needs of urban areas hit hardest by the epidemic, and to assist smaller
cities and rural areas experiencing rapid rates of growth. They also intended to
confront emerging problems facing local public and private organizations.

As a result, the Act is multifaceted, with four titles directing resources to various
entities and allowing grantees maximum flexibility in the use of funds, particularly at
the local level. The Federal role is minimized in favor of State and local control. The
Health Resources and Services Administration (HRSA) within the Public Health
Service administers the Act. In fiscal year (FY) 1994, grantees received $579.4 million
in Ryan White funds.

                                Title I - Grants to Cities

Title I provides emergency relief grants to eligible metropolitan areas (EMAs)
disproportionately affected by the HIV epidemic. Congress intended these funds to
relieve the overwhelming burden that HIV imposed on urban health care systems.
Grants are for HIV-related outpatient and ambulatory health and support services,
including case management and comprehensive treatment services. Title I funds
comprise 56 percent of the FY 1994 Ryan White appropriation.

Grants are awarded to cities, specifically to the chief elected official (CEO) that
administers the public agency providing outpatient and ambulatory services to the
greatest number of individuals with AIDS, in most cases the public health agency.

Under Title I, the CEO is required to establish a planning council representing health
and social service agencies, individuals with AIDS, State government, community
leaders, AIDS organizations, and others. This planning council is responsible for: (1)
establishing priorities for the allocation of funds, (2) developing a comprehensive plan
for the organization and delivery of services, and (3) assessing the efficiency of the
administrative mechanism in rapidly allocating the funds to areas of greatest need
within the EMA.

Public or non-profit private organizations are eligible for funding to provide services
on a contract basis with the EMA. These organizations include hospitals, community-
based organizations, hospices, ambulatory care facilities, community, homeless and
migrant health centers.




                                            L
                                Title II- Grants to States

Title II provides grants to States and territories to improve the quality, availability and
organization of health care and support services for individuals and families with HIV
disease. A major intent of Title II was to develop service delivery systems to provide
essential services throughout the complex course of HIV disease. Title II funds
comprise 32 percent of the FY 1994 Ryan White appropriation.

States have the option of using Title II funds in one or more of the following ways.
They may establish HIV care consortia in areas most directly affected by the disease.
Consortia are community-based, coordinated, continuums of care to which all persons
with HIV/AIDS would have access. These continuums of care are intended to close
existing gaps in services, coordinate health and support services, build community
infrastructure and service networks with an emphasis on integration of expanded
community resources, and provide continuity of care through case management.

Other State options for Title 11funds include providing home and community-based
care services, including outreach services to individuals in rural areas. States may also
furnish medications that prolong life or prevent serious deterioration of health. In
addition, they may also provide assistance to assure the continuity of health insurance
coverage.

                  Title III(b) - Grants to Communitv Health Providers

Title III(b) supports early intemention services on an out-patient basis, including
counseling, testing, referrals, clinical and diagnostic services, and other therapeutic
services. It provides competitive grants to private non-profit organizations and public
migrant, community, and homeless health centers, hemophilia centers, and federally-
qualified health centers. Title III(b) funds comprise 8 percent of the FY 1994 Ryan
White appropriation.

                          Title IV - Grants for Pediatric AIDS

Title IV aims to improve and expand the system of comprehensive care services and
increase access to research for children, youth, women and families who are infected
with or affected by HIV/AIDS. Title IV grantees provide, arrange, or coordinate a
wide range of services. These services include prevention and education activities,
primary medical care, psychosocial services, substance abuse treatment, housing, child
welfare, legal advocacy, and other support activities. Comprehensive systems of care
are linked with clinical research trials and other research activities, intended to
increase access for a target population of children, youth, women and families. Title
IV funds comprise 4 percent of the FY 1994 Ryan White appropriation.




                                             3

